                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1              April 1 – September 30, 2009
                                                                     AGENCY PROFILE

Chairman Wilma B. Liebman, Member             equivalents. NLRB Headquarters is at
Peter C. Schaumber, and General               1099 14th Street, NW, Washington, DC.
Counsel Ronald Meisburg continued to
serve during this reporting period.           In addition to the Headquarters building,
                                              employees are located in 51 field offices
There are currently three Board Member        throughout the country. Three satellite
nominations pending consideration by          offices for the administrative law judges
the Senate. If confirmed, those three         are located in Atlanta, San Francisco,
will fill the vacant seats on the five-       and New York City. Since October 2,
Member Board.                                 2000, field offices have included 32
                                              Regional Offices, 16 Resident Offices,
The NLRB received an appropriation of         and 3 Subregional Offices.
$262,595,000 for Fiscal Year (FY) 2009
to fund a ceiling of 1,637 full-time          Additional information about the NLRB
                                              can be found at www.NLRB.gov.




NLRB OIG Semiannual Report                2              April 1 – September 30, 2009
                                  OFFICE OF INSPECTOR GENERAL
NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources                                     Inspector General for Investigations, an
The FY 2009 OIG budget was                    Assistant Inspector General for Audits,
$1,045,700 for operations, of which           two auditors, and a staff assistant. At
$175,000 was for contract services. In        this time, the Counsel/Assistant
addition to the Inspector General, the        Inspector General for Investigations
OIG consists of a Counsel/Assistant           position is vacant.




NLRB OIG Semiannual Report                3               April 1 – September 30, 2009
                                                             AUDIT PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued one audit
report and two issue alerts.

Reports Issued                                   reporting systems, and differences in the
We issued Audit Report OIG-AMR-60-               two electronic case processing systems
09-02, Office of the Executive Secretary         that made reconciling the two systems
Survey, on August 26, 2009. Our                  difficult. When we looked at the case
objective for this review was to gather          assignment process, we identified a lack
information about the Office of the              of documentation of procedures in the
Executive Secretary (OES) to determine           assignment of cases to Board Member
functions performed by the office and            offices that could call into question the
internal controls that management                fairness of that process. When we
exercises in carrying out its mission.           looked at the case processing reports, we
                                                 found that the staff manipulated the data
We found that the OES was generally              and processes to create reports.
assigning cases and affecting the
issuance of the Board’s decisions in a           We recommended that the Executive
timely manner. We also found that there          Secretary work with the Board to
was a general lack of acceptance of              evaluate OES’ organizational structure,
ownership and responsibility for the case        duties, and staffing needs. We also
processing data.                                 made recommendations to strengthen
                                                 internal controls.
We identified several internal control
issues. This included errors in                     We released Issue Alert OIG-IA-
participant information that may affect          09-03, Nonreimbursable Details, on
service to those participants, errors in         May 18, 2009. The purpose of this Issue
data elements in the Board's case                Alert was to provide information to
                                                 Agency managers regarding



NLRB OIG Semiannual Report                   4               April 1 – September 30, 2009
                                                                           AUDIT PROGRAM

nonreimbursable details to other Federal        wants to apply for a position will have
agencies. We reported that there are two        all the information necessary to apply
exceptions to the Antideficiency Act’s          and will be given an open and fair
prohibition on nonreimbursable details.         opportunity to be hired.
The first is when the detail involves a
matter that is so closely related to the        We found that when a job announcement
agency’s mission that it accomplishes           is corrected without a sufficient period
the purpose for which the appropriation         of time remaining in the open period,
was made. The second is when the                there may be little to no opportunity for
detail would have a negligible impact on        anyone to apply for the position under
the agency’s appropriation and the detail       the correction. In this type of situation,
is for a limited duration.                      the perception that can often be created
                                                is that there was a manipulation of the
   We released Issue Alert OIG-IA-09-          system involving the “pre-selection” of
04, Merit System Issue, on August 27,           the hired applicant.
2009. The purpose of this Issue Alert
was to address a complaint that we              Because we did not find any evidence of
received regarding a vacancy                    misconduct, we suggested that the
announcement and selection.                     Human Resources Branch use this Issue
                                                Alert as an opportunity to remind its
We reported that the merit principles           staff of the need to be mindful of the
require that agencies provide adequate          merit principles and provide guidance
public notice of competitive service            regarding matters to be considered when
vacancies that are being filled and that        making amendments to a job
such notice means that any person who           announcement.




NLRB OIG Semiannual Report                  5               April 1 – September 30, 2009
                                                                      AUDIT PROGRAM

Audit Follow-up                               been completed on two of the three
Agreed upon actions were not completed        recommendations. The Agency is
within 1 year on five audit reports.          actively working to implement the final
                                              recommendation.
   Audit of the NLRB Fiscal Year
2006 Financial Statements, OIG-F-11-             Office of the Chief Information
07-01, was issued on December 14,             Officer Procurement Functions, OIG-
2006, and we reached agreement with           AMR-57-08-01, was issued on March
management on June 14, 2007. We               14, 2008, and we reached agreement
continue to monitor the Agency’s              with management on that date. Action
progress towards implementing the final       has been completed on five of the seven
open recommendation.                          recommendations. The Agency is
                                              actively working to implement the other
   Continuity of Operations,                 two recommendations.
OIG-AMR-55-07-03, was issued on
September 18, 2007, and we reached            Budget Submission Case Processing
agreement with management on that             Data, OIG-AMR-58-08-02, was issued
date. Action has been completed on one        on September 3, 2008, and we reached
of the three recommendations. The             agreement with management on that
Agency is actively working to                 date. Management is making progress
implement the other two                       implementing one of the two
recommendations.                              recommendations and has reported that
                                              the corrective action on the other has
   Audit of the NLRB Fiscal Year             been completed. We will review these
2007 Financial Statements, OIG-F-12-          actions after the current budget
08-01, was issued on December 17,             submission cycle is completed.
2007, and we reached agreement with
management on that date. Action has



NLRB OIG Semiannual Report                6              April 1 – September 30, 2009
                                              INVESTIGATIONS PROGRAM
The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 193 contacts, initiated 7 cases, and closed 4 cases. The investigations resulted
in one removal, two suspensions, and two referrals to the Department of Justice.


                        Case Workload                  Contacts Processed

                  Open (4/1/2009)       10        Received                  193

                  Initiated               7       Initiated Investigation     2

                  Closed                  4       Opened Case --              0
                                                  Referred to Agency
                  Open (9/30/2009)      13        Non-Investigative         191
                                                  Disposition


   False Information. We initiated                    False Employment Application.
this investigation after receiving                 This investigation was initiated after we
information that the subject provided              received a report that the subject, an
misleading information in a document               Agency employee, submitted a false
that was provided to an Agency                     application for a higher graded position.
manager. After we initiated the                    Our investigation substantiated the
investigation, we found that not only              allegation. The subject’s employment
was the allegation substantiated, but that         with the Agency ended prior to
the subject provided similar misleading            management officials taking action
information in an official writing sent to         based on the information in our
an outside entity. We also found that the          investigative report. (OIG-I-434)
subject provided misleading information
during the investigation. After issuing                Loss of Property. We initiated
our investigation report, the subject was          this investigation after learning that
removed from employment with the                   certain inventoried property was
Agency. (OIG-I-433)                                missing. We found that two subjects




NLRB OIG Semiannual Report                    7                   April 1 – September 30, 2009
                                                                INVESTIGATIONS PROGRAM

were involved in the taking of the                    Merit System Principles. We
property and that they took action to              received a complaint that the Agency
conceal the misconduct from Agency                 provided an unlawful preference when it
management. One of the subjects also               hired an employee. Although we did not
provided misleading information to the             find sufficient evidence to substantiate
OIG. We recovered the property. At the             the allegation, we did find procedural
time of this report, Agency management             issues involving the Merit System
is considering disciplinary action.                Principles. We resolved this matter
(OIG-I-431)                                        through an Issue Alert. (OIG-I-438)


   Time and Attendance. We                           Travel Card Abuse. As
initiated this investigation after receiving       previously reported, we conducted an
a complaint that a supervisor was                  investigation involving an allegation that
approving his or her own leave. What               an employee misused the Government
we found was that although the time and            travel card. During a 3-month period of
attendance records for the supervisor              time, the employee made 22 purchases at
were certified by a manager in                     gas stations that totaled $934.38. During
accordance with Agency policy, the                 the same period of time, the subject was
supervisor was not requesting or                   reimbursed $192.36 for travel-related
receiving approval of the leave prior to           expenses – including $62.50 for parking
the absence. We also found that the                and tolls. Only five of the
supervisor’s leave usage could indicate a          reimbursements occurred on or within 2
leave abuse situation. After our report            days of a travel card purchase by the
was issued, the supervisor received                subject. The employee also failed to pay
informal counseling. (OIG-I-432)                   the balance due on the travel card and
                                                   the travel card account was terminated.
                                                   During the investigation, the employee
                                                   provided misleading statements to the



NLRB OIG Semiannual Report                     8              April 1 – September 30, 2009
                                                                INVESTIGATIONS PROGRAM




OIG investigator. As discipline, the             abuse are encouraged to contact OIG.
subject received a 2-day suspension.             A log of calls to a nationwide toll-free
(OIG-I-430)                                      number or the office numbers and a log
                                                 of mail, e-mail, and facsimile messages
   Travel Card Abuse. As                        are maintained. All information
previously reported, we conducted an             received, regardless of the method used,
investigation involving an employee              is referred to as Hotline contacts.
who misused the Government travel
card. During the 18 months preceding             The information received over the
our investigation, the employee used the         Hotline is the basis for the initial review
travel card on eight occasions to receive        for potential investigations. The
cash advances at casinos. The total              information is analyzed to determine if
amount of the cash advances, including           further inquiry is warranted. Most
the associated fees, was $3,314.76. On           Hotline contacts are calls from members
two occasions, the subject used the              of the public seeking help on an
travel card for food and lodging for total       employment-related problem or issues
charges of $240.03 that were not related         outside OIG and/or Agency jurisdiction.
to official travel. As discipline, the
subject received a 30-day suspension             As appropriate, OIG refers these callers
with an additional 30 days held in               to the Regional Office; local, state, or
abeyance for a period of 2 years.                Federal agency; or private resources to
(OIG-I-429)                                      provide assistance. During this
                                                 reporting period, OIG received 193
Hotline                                          Hotline contacts, of which 67 were
Employees and members of the public              telephone calls or walk-ins and 126 were
with information on fraud, waste, and            in writing.




NLRB OIG Semiannual Report                   9                 April 1 – September 30, 2009
                  LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed six pieces of legislation.

Legislation                                     of the requirements of this section and
We reviewed the following legislation           on the strengths, weaknesses, and
and provided input when appropriate.            limitations of the agency's assessment
                                                process, as well as the quality of the
H.R. 2142, Government Efficiency,               agency's assessment reports and
Effectiveness, and Performance                  improvement plans.
Improvement Act of 2009. This
legislation would require the head of           S. 921, United States Information and
each agency, in collaboration with the          Communications Enhancement Act of
Director of the Office of Management            2009. This legislation makes the head of
and Budget, to conduct an assessment of         each agency responsible for providing
each agency program at least once every         appropriate information security
5 fiscal years, assessing the program's         protections. It also requires that the
purpose, strategic plan and objectives,         Inspector General of each agency
organizational design, management,              conduct an annual independent
efficiency, and effectiveness in                information security effectiveness
achieving its performance objectives and        evaluation.
identifying strengths and weaknesses
and factors affecting program success.          The legislation would also require that
                                                each agency coordinate with the United
Each year, following the release of             States Computer Emergency Readiness
assessment reports, the Inspector               Team. It would require that the
General of each agency shall submit to          components of each agency establish an
Congress, and post on the OIG Web site,         automated reporting mechanism
a report on the agency's implementation         allowing its chief information security


NLRB OIG Semiannual Report                 10                 April 1 – September 30, 2009
                                                 LEGISLATION, REGULATIONS, AND POLICY

officer and security operations center at         General recommendations to be
the agency level to implement and                 submitted to the Congressional
monitor the agency’s security policies,           committees with jurisdiction over the
procedures, and controls.                         agency and to the Government
                                                  Accountability Office (GAO).
S. 976. This legislation provides that
certain provisions of the Paper Work              S. 1508 and H.R. 3393, Improper
Reduction Act shall not apply to the              Payments Elimination and Recovery
collection of information during any              Act of 2009. This legislation would
investigation, audit, inspection,                 require the head of each Federal agency
evaluation, or other review conducted             to review agency programs and activities
by: (1) any Federal Office of Inspector           every 3 fiscal years and identify those
General; (2) the Council of the                   that may be susceptible to significant
Inspectors General on Integrity and               improper payments. It defines
Efficiency; or (3) the Recovery                   "significant" as improper payments in
Accountability and Transparency Board.            programs in the preceding fiscal year
                                                  that may have exceeded $10 million and
H.R. 2646, Government                             2.5 percent of program outlays or $100
Accountability Office Improvement                 million. It also sets forth risk factors for
Act of 2009. This legislation would               conducting improper payment reviews.
authorize the Comptroller General to: (1)         The head of each agency would be
obtain Federal agency records required            required to produce a statistically valid
to discharge his or her duties; and (2)           estimate of the improper payments in
make and retain copies of agency                  their agencies and include such estimates
records and interview Federal agency              in the annual financial statements. The
officers and employees. It also requires          Inspector General would be required to
an agency’s statement on actions taken            report each fiscal year on agency
or planned in response to Comptroller             compliance with this act.



NLRB OIG Semiannual Report                  11                April 1 – September 30, 2009
                                               LEGISLATION, REGULATIONS, AND POLICY

Regulations                                     Rules Revision Committee that develops
The Counsel to the Inspector General is         changes to the Agency's procedural
an advisory member of the Agency's              regulations.




NLRB OIG Semiannual Report                12               April 1 – September 30, 2009
                                                       LIAISON ACTIVITIES
The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                     The Counsel participated in the Council
The Inspector General is a member of            of Counsels to Inspectors General.
the Council of the Inspectors General on
Integrity and Efficiency. This                  Government Accountability Office
organization consists of Inspectors             The IG Act states that each Inspector
General at the Federal Government's             General shall give particular regard to
departments and agencies.                       the activities of the Comptroller General
                                                of the United States, as head of the
The Assistant Inspector General for             GAO, with a view toward avoiding
Audits, or designated auditors,                 duplication and ensuring effective
participated in the Federal Audit               coordination and cooperation. We had
Executives Council, Financial Statement         no activity during this reporting period
Audit Network, and the Interagency              that required coordination with GAO.
Investigative Data Mining Working
Group.




NLRB OIG Semiannual Report                 13               April 1 – September 30, 2009
                           INFORMATION REQUIRED BY THE ACT
Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Two cases were referred to prosecutorial authorities.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 15.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs or that identified funds that could be put to better use. See Table 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      14                   April 1 – September 30, 2009
                          AUDIT REPORTS BY SUBJECT MATTER

                                                                      Funds To
                              Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number         Costs         Costs        Costs      Better Use

BOARD ADJUDICATION

Office of the Executive
Secretary Survey
OIG-AMR-60-09-02                  0             0            0            0




NLRB OIG Semiannual Report            15            April 1 – September 30, 2009
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    16       April 1 – September 30, 2009
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      0             0

       Subtotals (A+B)                   0             0


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   17         April 1 – September 30, 2009
Every employee is the
guardian of integrity                                    .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570




NLRB OIG Semiannual Report   18   April 1 – September 30, 2009
